                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A11080057                                                                              Page 1 of 1



               Our office received information that two proposals 1 submitted by current National
        Science Board (NSB) members 2 had not undergone the special handling process detailed in the
        Proposal and Award Manual (PAM). 3 We reviewed these matters and determined that, while no
        misconduct occurred, both situations reflected inconsistent and inadequate implementation of the
        PAM's stated process. Given our findings, we proactively reviewed other proposals submitted
        by NSB members and similarly found procedural lapses. Based on these reviews, we compiled
        recommendations intended to prevent future such occurrences.

                We provided these recommendations to NSF and NSB in a Management Implication
        Report. They provided our office with a response, in which they agreed to implement each
        recommendation. 4 They also provided our office with documentation indicating proper handling
        of all current NSB members' proposals and awards.

                  Accordingly, this case is closed and no further action will be taken.



                                                                                                                   I   I
                                                                                                                       I




         2
         3
          NSF Manual #10, IV.D.
         4NSF and NSB indicated that the recommendations will be implemented by end of February 2012, end of May
         2012, or January 2013, depending on the extent of the changes required to implement the recommendation.




NSF OIG Form 2 (11102)
